NO:__________
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
MARQUIS WILSON,

Petitioner,
v.
UNITED STATES OF AMERICA

Respondent.
____________________________________________________________
On Petition for A Writ of Certiorari
To the United States Court of Appeals
For the Third Circuit
____________________________________________________________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
___________________________________________________________
Alison Brill, Esq.
Assistant Federal Public Defender
Office of the Federal Public Defender
22 South Clinton Avenue
Station Plaza #4, Fourth Floor
Trenton, New Jersey 08609
(609) 489-7457
alison_brill@fd.org
Attorney for Petitioner
Marquis Wilson

TABLE OF CONTENTS
Opinion affirming conviction and sentence,
United States v. Marquis Wilson, 960 F.3d 136 (3d Cir. May 22, 2020).………….1

United States v. Wilson, 960 F.3d 136 (2020)

960 F.3d 136
United States Court of Appeals, Third Circuit.
UNITED STATES of America
v.
Marquis WILSON, Appellant in No. 18-1079
United States of America
v.
Malcolm Moore, Appellant in No. 18-1097
Nos. 18-1079 & 18-1097
|
Submitted Under Third Circuit L.A.R. 34.1(a) on
April 28, 2020
|
(Filed: May 22, 2020)

Synopsis
Background: Following denial of their motions to
suppress evidence, 2016 WL 11642732, to dismiss
indictment, to sever defendants, and to suppress cell site
location information, 216 F.Supp.3d 566, defendants were
convicted of armed bank robbery, conspiracy to rob banks,
and using firearm in course of committing crime of
violence. The United States District Court for the Eastern
District of Pennsylvania, Mark A. Kearney, J., 2017 WL
6328154, denied their motions for judgment of acquittal
and for new trial, and they appealed.

Holdings: The Court of Appeals, Bibas, Circuit Judge,
held that:
as a matter of first impression, counsel’s failure to consult
with defendant before stipulating that both bank branches
were federally insured was not structural error;
officer did not impermissibly prolong stop of defendants’
vehicle;

district court did not abuse its discretion in determining that
prosecutor was not improperly vouching for cooperating
witnesses;
there was sufficient evidence of defendant’s involvement
to support his convictions;
there was sufficient evidence that gun used during bank
robberies was real to support convictions;
any error in jury instruction that conspiracy to commit bank
robbery was “crime of violence” under statute prohibiting
use of firearm in course of committing crime of violence
was harmless
First Step Act did not apply retroactively to defendants;
and
district court did not abuse its discretion in sentencing
defendant to 519-month term of imprisonment.
Affirmed.
Procedural Posture(s): Appellate Review; Pre-Trial
Hearing Motion; Post-Trial Hearing Motion; Sentencing or
Penalty Phase Motion or Objection.
*141 On Appeals from the United States District Court for
the Eastern District of Pennsylvania (D.C. Nos. 2:14-cr00209-001 & 2:14-cr-00209-002), District Judge:
Honorable Mark A. Kearney
Attorneys and Law Firms
Alison Brill, Office of the Federal Public Defender, 22
South Clinton Avenue, Station Plaza #4, Fourth Floor,
Trenton, NJ 08609, Counsel for Appellant Marquis Wilson
Linda D. Hoffa, Dilworth Paxson, 1500 Market Street,
Suite 3500E, Philadelphia, PA 19102, Counsel for
Appellant Malcolm Moore

government’s use of cell site location information about
defendant’s cell phone fell within scope of good faith
exception to exclusionary rule;

William M. McSwain, Robert A. Zauzmer, Salvatore L.
Astolfi, Office of the United States Attorney, 615 Chestnut
Street, Suite 1250, Philadelphia, PA 19106, Counsel for
Appellee

district court did not commit plain error by failing to sever
sua sponte defendant’s trial from his co-defendant’s;

Before: HARDIMAN, GREENAWAY, JR., and BIBAS,
Circuit Judges

district court did not abuse its discretion by denying
mistrial after government witness mentioned defendants’
drug dealing;
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

1

United States v. Wilson, 960 F.3d 136 (2020)

OPINION OF THE COURT
BIBAS, Circuit Judge.
A jury convicted Marquis Wilson and Malcolm Moore of
two counts of armed bank robbery, conspiracy to rob
banks, and two counts of using a firearm in the course of
committing a crime of violence. They raise a host of
challenges to their convictions and sentences. We find no
error and will affirm on all fronts. In doing so, we hold that
the Sixth Amendment does not categorically forbid
stipulating to a crime’s jurisdictional element without the
defendant’s consent or over the defendant’s objection.
Though contesting or conceding guilt is for criminal
defendants to decide, their lawyers may decide whether to
contest or concede a crime’s jurisdictional element.

I. BACKGROUND
Wilson’s and Moore’s convictions stem from two bank
robberies in November 2013. On November 4, three men
robbed a Wells Fargo branch in Bala Cynwyd,
Pennsylvania. The men entered the bank with what looked
like a semiautomatic hand-gun and took roughly $81,000.
A bank employee named Calia Kane later admitted to
assisting the robbers.
The next morning, Wilson, Moore, and Martril Foster were
pulled over while driving a rental car southbound on I-85
in North Carolina. After Wilson, the driver, said they were
driving to Georgia and admitted that they had a lot of cash
in the car, the officer suspected that the men were going to
buy drugs in Atlanta. He searched the car, found the stolen
cash, seized it, and turned it over to federal drug *142
agents. Afterward, the officer released the three men.
About a week later, three men showed up at another Wells
Fargo branch in Phoenixville, Pennsylvania. But the bank
was closed for Veterans Day, so the men tried again the
next day. This time the bank was open, and the men got
away with roughly $70,000.
The police later got a tip from Lester Howell, a man whom
Wilson had tried to recruit for the heists, about the first
bank robbery. Howell gave the police a cell phone number
of one of the robbers. The police traced that number to
Wilson and pulled his cell-site location data, which put him
at the scene of the Bala Cynwyd branch right before the
first robbery. The data also showed five calls and seventeen

text messages to and from Kane, the bank employee, that
same day. And Howell identified Wilson and Moore from
a video of the robbery.
Because of the similarities in the two robberies, police
suspected that they involved the same perpetrators. Wilson,
Moore, Foster, and Kane were charged for their roles in
both. Kane and Foster took plea bargains and cooperated
with the police.
Wilson and Moore were tried jointly for two counts of bank
robbery, conspiracy, and two counts of using a firearm in
furtherance of a crime of violence. At trial, Wilson
conceded that he had been one of the robbers and instead
challenged whether the gun used was real. Moore
maintained his innocence. Both men were convicted on all
counts. The District Court sentenced Moore to 385 months’
imprisonment, one month more than the mandatoryminimum sentence for his gun charges. Wilson received
519 months, the top of his Sentencing Guidelines range.
Both men now appeal. The District Court had jurisdiction
under 18 U.S.C. § 3231, and we have jurisdiction under
18 U.S.C. § 3742(a) and 28 U.S.C. § 1291.

II. COUNSEL’S STIPULATION THAT THE BANKS
WERE FEDERALLY INSURED DID NOT
VIOLATE THE SIXTH AMENDMENT
We start with the Sixth Amendment claim, as it is one of
first impression in our Circuit. Wilson argues that his
counsel violated his right to put on the defense of his choice
by stipulating that both Wells Fargo branches were
federally insured. If a defendant robs a federally insured
bank, that insurance gives prosecutors a jurisdictional hook
to charge him with federal bank robbery under
18
U.S.C. § 2113(a) and
(f). So counsel’s stipulation to
this fact satisfied the jurisdictional element of federal bank
robbery. Wilson says the stipulation was there-fore
“tantamount to a guilty plea.” Wilson Br. 37. Moore
phrases the same argument differently, objecting that he
was never advised of, and never consented to, his counsel’s
stipulation.
We disagree. We hold that a defendant need not consent to
a jurisdictional stipulation. Even if a lawyer stipulates to a
crime’s jurisdictional element without getting his client’s
consent or over his client’s objection, that stipulation does
not per se violate a criminal defendant’s Sixth Amendment

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

2

United States v. Wilson, 960 F.3d 136 (2020)

right to counsel.

“choices about what the client’s objectives in fact are”
belong to defendants themselves, and violating a
defendant’s right to make those choices is structural error.
Id.

A. Criminal defendants have the right to dictate the
objectives of their defense and to make fundamental
decisions
When a criminal defendant challenges his counsel’s
tactical choices, we usually analyze that challenge under
the two-prong test of
Strickland v. Washington, 466
U.S. 668, 687, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). But
when a defendant is deprived of counsel entirely, the error
is *143 structural and the defendant gets a new trial. See
Gideon v. Wainwright, 372 U.S. 335, 340–42, 83 S.Ct.
792, 9 L.Ed.2d 799 (1963). Likewise, when a defendant
insists on representing himself, denying his right to do so
is structural.
McKaskle v. Wiggins, 465 U.S. 168, 177–
78 & n.8, 104 S.Ct. 944, 79 L.Ed.2d 122 (1984). So too is
denying a defendant the right to retain counsel of his
choice.
United States v. Gonzalez-Lopez, 548 U.S. 140,
150, 126 S.Ct. 2557, 165 L.Ed.2d 409 (2006). Thus, “[t]he
Sixth Amendment does not provide merely that a defense
shall be made for the accused; it grants to the accused
personally the right to make his defense.”
Faretta v.
California, 422 U.S. 806, 819, 95 S.Ct. 2525, 45 L.Ed.2d
562 (1975).

In
McCoy, the defendant was charged with murdering
three relatives of his estranged wife and faced a possible
death sentence.
138 S. Ct. at 1505–06. His counsel
wanted to concede guilt and argue for mercy at sentencing.
Id. at 1506 & n.2. But the defendant insisted on
contesting guilt; he demanded that counsel instead advance
a conspiracy theory that he was being framed by crooked
state and federal officials. See
id. at 1513 (Alito, J.,
dissenting). Counsel ignored that demand and conceded
before the jury that McCoy had killed the victims.
Id.
at 1506–07 (majority opinion).

The Sixth Amendment respects a defendant’s right to
counsel and right to autonomy by dividing ultimate
decisionmaking authority between lawyer and defendant.
Lawyers control tactics, while defendants get to set bigpicture objectives. For tactical decisions, like which
arguments to press and what objections to raise, the lawyer
calls the shots. See
Gonzalez v. United States, 553 U.S.
242, 248–49, 128 S.Ct. 1765, 170 L.Ed.2d 616 (2008)
(citing
New York v. Hill, 528 U.S. 110, 114–15, 120
S.Ct. 659, 145 L.Ed.2d 560 (2000)). But fundamental
decisions belong to the defendant alone: whether to plead
guilty, waive a jury trial, testify, or appeal.
Jones v.
Barnes, 463 U.S. 745, 751, 103 S.Ct. 3308, 77 L.Ed.2d 987
(1983).
Recently, in
McCoy v. Louisiana, the Supreme Court
clarified the line between tactical and fundamental
decisions. See
––– U.S. ––––, 138 S. Ct. 1500, 1507–
08, 200 L.Ed.2d 821 (2018). On the one hand, “strategic
choices about how best to achieve a client’s objectives” are
decisions for lawyers, so we review them for
ineffectiveness.
Id. at 1508. On the other hand,

The Supreme Court vacated McCoy’s convictions. The
Sixth Amendment, it held, guarantees defendants the
“[a]utonomy to decide that the objective of the defense is
to assert innocence.”
138 S. Ct. at 1508. Violation of
that right is structural error.
Id. at 1511. The Court
observed that a defendant “may wish to avoid, above all
else, the opprobrium that comes with admitting he killed
family members.”
Id. at 1508. So “[w]hen a client
expressly asserts that the objective of ‘his defence’ is to
maintain innocence of the charged criminal acts, his lawyer
must abide by that objective and may not override it by
conceding guilt.”
Id. at 1509 (quoting U.S. Const.
amend. VI). Yet the Court did not explain what kinds of
concessions count as “conceding guilt.” That is the issue
here.

B. Whether to contest a crime’s jurisdictional
element is not a fundamental decision reserved for
the defendant
Wilson argues that under
McCoy, his counsel’s
stipulation to the jurisdictional element violated his Sixth
Amendment *144 rights. But this case is different from
McCoy. For one, counsel did not override his client’s
expressed wishes. There is no evidence that either
defendant objected to the stipulation or demanded that
counsel not concede this element of the crime. Appellants
argue only that counsel should have consulted with them
or that the District Court should have advised them about
it. True, the stipulation was in some sense contrary to
Wilson’s asserted “objective ... to contest the charges

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

3

United States v. Wilson, 960 F.3d 136 (2020)

against him” generally, and to Moore’s decision to
challenge his guilt “in all respects.” Wilson Br. 37; Moore
Br. 39. But neither can show that he “expressly assert[ed],”
and that counsel ignored, a specific demand to fight the
jurisdictional element.
McCoy, 138 S. Ct. at 1509.
Even if appellants had instructed counsel to fight the
jurisdictional element, two more basic factors would
distinguish
McCoy. First, that case was about
conceding factual guilt: McCoy claimed that he had not
killed the victims. While maintaining one’s innocence or
trying to minimize punishment is a fundamental objective
of the defense, litigating the jurisdictional element is but a
technical, tactical means to achieve that objective. Second,
jurisdictional elements trigger no “opprobrium” or stigma.
McCoy, 138 S. Ct. at 1508. In fact, they typically have
nothing to do with the defendant. Whether the Wells Fargo
branches were federally insured is quite separate from
Wilson’s or Moore’s conduct, mental states, or
involvement in the robberies. So conceding the
jurisdictional element cast no stigma upon them.
In sum, whether to contest or concede a jurisdictional
element is a tactical decision reserved for counsel, not
defendants. This is why
McCoy distinguished counsel’s
concession of factual guilt from a “strategic” decision “to
concede an element of a charged offense.”
138 S. Ct. at
1510. Here, counsel made the latter choice. And by
conceding jurisdiction, counsel has not “entirely fail[ed] to
subject the prosecution’s case to meaningful adversarial
testing.”
United States v. Cronic, 466 U.S. 648, 659,
104 S.Ct. 2039, 80 L.Ed.2d 657 (1984). Of course, counsel
always retains the ethical responsibility to consult with the
defendant about how to achieve the defendant’s goals. See,
e.g., Model Rules of Prof’l Conduct r. 1.4(a)(2). But failure
to consult with the defendant on the stipulation or to heed
his instruction to contest a jurisdictional element, while
perhaps ethically worrisome, is not structural error. We
express no view about whether counsel’s decision here met
Strickland’s two-part test for effective assistance of
counsel.

III. THE FOURTH AMENDMENT CLAIMS FAIL
Next, we turn to a pair of suppression claims, both of which
fail.

A. The traffic stop did not violate the Fourth
Amendment
Wilson and Moore sought to suppress the evidence seized
from their rental car in North Carolina. Moore argues that
the initial stop was improper. And both claim that the
police officer impermissibly extended the stop before he
found the evidence. The District Court denied their
motions to suppress. We agree and will affirm that ruling.
We review the District Court’s factual findings for clear
error and its application of law to those facts de novo.
United States v. Mosley, 454 F.3d 249, 252 (3d Cir. 2006).
Our review of the facts is aided by the dashcam video from
Officer Joshua Freeman’s patrol car, which is in the record
and lasts the duration of the traffic stop.
1. There was reasonable suspicion to support the traffic
stop. Moore first *145 argues that any evidence from the
traffic stop should have been suppressed because the stop
was pretextual and not supported by probable cause. But
traffic stops require only reasonable suspicion, not
probable cause.
United States v. Lewis, 672 F.3d 232,
237 (3d Cir. 2012). And pretext is irrelevant: “[T]he
Supreme Court [has] established a bright-line rule that any
technical violation of a traffic code legitimizes a stop, even
if the stop is merely pretext for an investigation of some
other crime.”
Mosley, 454 F.3d at 252 (citing
Whren v. United States, 517 U.S. 806, 116 S.Ct. 1769, 135
L.Ed.2d 89 (1996)).
Officer Freeman had reasonable suspicion that the driver
had broken traffic laws. He testified at the suppression
hearing that he saw the car speeding, changing lanes
without signaling, and tailgating the car in front of it. The
District Court credited this testimony. And we can see the
tailgating violation for our-selves on the video. All of these
violate North Carolina traffic law. See
N.C. Gen. Stat.
§§ 20-141(a)– (b),
(d); 20-152(a), 20-154(a), (b). So
there was reasonable suspicion to justify the stop.
2. Officer Freeman did not impermissibly prolong the stop.
A traffic stop may last as long as needed to “to address the
traffic violation that warranted the stop and attend to
related safety concerns.”
United States v. Clark, 902
F.3d 404, 409–10 (3d Cir. 2018) (quoting
Rodriguez v.
United States, 575 U.S. 348, 135 S. Ct. 1609, 1614, 191
L.Ed.2d 492 (2015)). Beyond that point, the officer must
have reasonable suspicion to prolong the stop and
investigate further.
Id. at 410. Here, the officer did.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

4

United States v. Wilson, 960 F.3d 136 (2020)

Within minutes, Officer Freeman learned suspicious facts
that gave him cause to investigate further. When he first
pulled the car over and asked Wilson for his license and
registration, Wilson explained that it was a rental car.
Freeman asked Wilson to get out of the car. While Wilson
was exiting, Freeman peered through the hatchback into
the trunk area and noticed that there was no luggage.
The rest of Officer Freeman and Wilson’s conversation
took place in the front of Freeman’s cruiser. Freeman
explained the traffic violations that he had witnessed.
Wilson then volunteered that he was driving from
Philadelphia to Georgia for his uncle’s funeral, that he was
tired, and that he planned to stay for a week. During this
exchange, Freeman kept communicating with dispatch
while checking Wilson’s license and the rental-car
information. He learned that Wilson’s name was not on the
rental agreement and that the day before, the car had been
rented for one month. This all happened within about four
minutes.
Officer Freeman then went to talk with Moore and Foster,
who were still in the rental car. They said they had been
traveling all night to Atlanta to see their brother and that
they planned to stay for a week, but said nothing about a
funeral. When Freeman asked why they had no luggage,
they answered that they would just buy what they needed
in Georgia. Freeman asked Wilson the same question and
got the same answer. Wilson also admitted that he had a
juvenile drug arrest.
Next, Officer Freeman confronted Wilson with his
suspicions that Wilson and his passengers were lying about
the real reason for their trip. Freeman told Wilson that he
did not buy his story about his uncle’s funeral. And he
asked how much cash was in the car. Wilson hesitated
before finally admitting that he thought there was roughly
$20,000.
We can hit pause on the story right there. At this point, less
than ten minutes had elapsed since Officer Freeman had
*146 pulled over Wilson’s car. As Freeman had not heard
back from dispatch with information about Wilson and the
rental car, the stop was still justified for traffic
enforcement. See
Rodriguez, 135 S. Ct. at 1614–15. By
then, Freeman had learned more than enough to establish
reasonable, articulable suspicion that the three men were
trafficking drugs: They were driving through North
Carolina in a rental car they had picked up the day before
in Philadelphia, but the person named in the rental
agreement was not in the car. They said they were going to
Georgia for a week, but the car was rented for a month and
they had no luggage. They gave conflicting stories about

their trip’s purpose. And Wilson confessed to having a lot
of cash in the car. Especially given Freeman’s extensive
experience interdicting drugs, his suspicion was
objectively reasonable. See
United States v. Arvizu, 534
U.S. 266, 273–74, 122 S.Ct. 744, 151 L.Ed.2d 740 (2002).
Thus, by the time Freeman extended the stop to investigate
other crimes, he had more than enough evidence “to
establish reasonable suspicion that [the passengers] w[ere]
involved in drug trafficking.” United States v. Green, 897
F.3d 173, 179 (3d Cir. 2018) (citing
Rodriguez, 135 S.
Ct. at 1615).
3. Wilson and Moore forfeited the argument that Wilson’s
consent was invalid. After Officer Freeman gave Wilson a
written warning, Wilson consented to a search of the rental
car. Only then did Freeman discover the stolen cash. In the
District Court, Wilson and Moore challenged the
voluntariness of that consent, but the court found that it was
voluntary. On appeal, Wilson and Moore allude to this
issue in passing but do not press it. Thus, they have
forfeited this issue. So we need not decide whether
Wilson’s consent was valid. See, e.g.,
Sikirica v.
Wettach (In re Wettach), 811 F.3d 99, 115 (3d Cir. 2016)
(appellants forfeited an argument by “fail[ing] to develop”
it before the court of appeals).

B. Use of the cell-site location data was proper
under the good-faith exception
Wilson and Moore also argue that, at trial, the Government
improperly introduced cell-site location information about
Wilson’s cell phone. In 2014, the Government got a court
order compelling production of that data under a statute
that did not require a search warrant. See
18 U.S.C. §
2703(d). At the time, our precedent approved of this
practice, permitting cell-site orders without probable cause.
See
In re Application of the U.S. for an Order Directing
a Provider of Elec. Commc’n Serv. to Disclose Records to
the Gov’t, 620 F.3d 304, 313 (3d Cir. 2010). Years later,
the Supreme Court abrogated that precedent, holding that
these cell-site searches require a warrant supported by
probable cause.
Carpenter v. United States, ––– U.S. –
–––, 138 S. Ct. 2206, 2217–21, 201 L.Ed.2d 507 (2018).
So Wilson and Moore argue that Wilson’s cell-site location
information should have been suppressed.
Not so. After Wilson and Moore filed their briefs, we held
that cell-site location information gathered under
§
2703(d) before
Carpenter is protected by the good-

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

5

United States v. Wilson, 960 F.3d 136 (2020)

faith exception to the exclusionary rule. United States v.
Goldstein, 914 F.3d 200, 204 (3d Cir. 2019). Relying on a
§ 2703(d) order was objectively reasonable at the time.
Id. And there is no claim that the Government violated the
procedures required by
§ 2703(d). Id. So the evidence
was admissible.

IV. THE DISTRICT COURT DID NOT ERR IN ITS
DISCRETIONARY TRIAL-MANAGEMENT
DECISIONS
Next, Moore challenges the District Court’s failure to sever
the two codefendants’ joint trial as well as its failure to
*147 grant a mistrial after a witness mentioned that Wilson
and Moore had a history of drug dealing. These
discretionary decisions were both proper.

A. The District Court did not commit plain error by
failing to sever the trial
In a move that Moore calls “[u]nexpected[ ]” and a
“surprise,” Wilson’s counsel conceded at trial that Wilson
had in fact robbed both banks. Moore Br. 48–49. By
contrast, Moore’s trial strategy was to deny any
involvement. Wilson’s concession undermined that
strategy by bolstering the testimony of cooperators whom
Moore needed to discredit. So Moore argues that the
District Court should have severed the two defendants’
trials right then and there.
Moore’s burden is extremely heavy. Because he did not ask
for a severance at the time, we review the District Court’s
failure to do so sua sponte for plain error. United States v.
Hart, 273 F.3d 363, 369–70 (3d Cir. 2001). And plain-error
review or not, “[i]t is not enough to show that severance
would have increased the defendant’s chances of
acquittal.”
United States v. McGlory, 968 F.2d 309,
340 (3d Cir. 1992). A defendant must always “pinpoint
‘clear and substantial prejudice’ ” arising from the failure
to sever and “resulting in an unfair trial.”
Id.
(quoting
United States v. Eufrasio, 935 F.2d 553, 568
(3d Cir. 1991)).
Moore cannot carry this burden. The risk of prejudice here
was weaker than in a case in which codefendants present
mutually antagonistic defenses: Wilson conceded his own

involvement, but the jury could still have found insufficient
evidence that Moore was involved with him. And
severance is strong medicine. Even in a case of antagonistic
defenses, severance is not automatically required. See
Zafiro v. United States, 506 U.S. 534, 538, 113 S.Ct. 933,
122 L.Ed.2d 317 (1993). Instead, we “leave[ ] the tailoring
of the relief to be granted, if any, to the district court’s
sound discretion.”
Id. at 538–39, 113 S.Ct. 933.
The District Court exercised that discretion here. It
reminded the jury that counsel’s statements were not
evidence and that the jury would have to decide each
defendant’s guilt individually. “We presume that the jury
follows such instructions, and regard such instructions as
persuasive evidence that refusals to sever did not prejudice
the defendant.”
United States v. Bornman, 559 F.3d
150, 156 (3d Cir. 2009) (quoting
United States v.
Urban, 404 F.3d 754, 776 (3d Cir. 2005)). That
presumption is a strong one, and Moore points to nothing
special here to overcome it.

B. The District Court did not abuse its discretion by
denying a mistrial after a witness mentioned Wilson
and Moore’s drug dealing
Moore also argues that the District Court should have
granted a mistrial after a witness unexpectedly mentioned
his history of drug dealing. According to the prosecution,
it had warned Foster, one of the cooperating
coconspirators, not to mention Wilson and Moore’s history
of dealing drugs. Yet when asked how he knew Wilson and
Moore, Foster testified that “we used to sell drugs
together.” Wilson App. 1218. The defense immediately
moved for a mistrial, which the District Court denied. We
review that denial for abuse of discretion. United States v.
Bailey, 840 F.3d 99, 131 n.153 (3d Cir. 2016).
Witnesses often let slip improper evidence. Usually, the
solution is a curative instruction telling the jury to
disregard what it should not have heard. We presume that
the jury will follow this instruction, *148 unless we see an
“ ‘overwhelming probability’ ” that it will not and “a strong
likelihood” that the improper evidence “would be
‘devastating’ to the defendant.”
United States v.
Gonzalez, 905 F.3d 165, 198 (3d Cir. 2018) (quoting
United States v. Newby, 11 F.3d 1143, 1147 (3d Cir.
1993)).
Here, the District Court gave a curative instruction
promptly. It told the jury to “[d]isregard the comment about

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

6

United States v. Wilson, 960 F.3d 136 (2020)

selling drugs,” clarified that the trial was about bank
robberies and guns rather than drugs, and warned the jury
that “we’re not going to either determine or be distracted
by anything else.” Wilson App. 1218–19. The court also
clarified that Foster’s statement “has no evidentiary value.”
Wilson App. 1219.
Nor is this the sort of inadvertent slip that would
irrevocably taint the jury. Foster said nothing about
robbing banks or using guns. Drug dealing is unrelated to
bank robbing and has only an indirect connection to gun
toting. Given the immediate and clear curative instruction,
this isolated comment would not have been “devastating.”
Gonzalez, 905 F.3d at 198 (quoting
Newby, 11
F.3d at 1147). So the District Court did not abuse its
discretion by denying a mistrial.

V. THE GOVERNMENT DID NOT MAKE
IMPROPER STATEMENTS AT TRIAL
Moore also challenges three of the prosecutor’s statements
in his closing argument. These challenges fail too.
Moore argues that in the prosecutor’s closing arguments,
he vouched for the prosecution’s own credibility and the
credibility of its witnesses. To show improper vouching,
the defendant must prove that the prosecutor did two
things: first, that he “assure[d] the jury that the testimony
of a government witness is credible,” and second, that he
explicitly or implicitly “base[d] his assurance on either his
claimed personal knowledge or other information not
contained in the record.”
United States v. Lore, 430
F.3d 190, 211 (3d Cir. 2005). A defendant must show that
a comment refers, explicitly or implicitly, to “the
prosecutor’s [own] personal knowledge” or to “other
information not contained in the [trial] record.”
United
States v. Walker, 155 F.3d 180, 187 (3d Cir. 1998).
Three statements are at issue. Because Moore objected to
the first of these statements, we review the District Court’s
decision to allow that statement for abuse of discretion.
United States v. Vitillo, 490 F.3d 314, 325 (3d Cir. 2007).
But because he did not object to the other two statements,
we review those for plain error.
United States v. Harris,
471 F.3d 507, 512 (3d Cir. 2006). In context, none of the
three challenged statements was improper.
First, the prosecutor argued that even though cooperators
like Kane and Foster “have a motive to lie, ... [w]e take

necessary precautions to ensure that if anybody’s going to
get on that stand and testify, they better darn well be telling
the truth.” Wilson App. 1441–42. The District Court
overruled Wilson’s objection. The prosecution
immediately clarified to the jury: “It’s the plea agreement
that I’m referring to .... They’re terms that [Kane and Foster
are] bound by. The only way that they could help
themselves here, ladies and gentlemen, is by telling the
truth. That’s their only hope.” Wilson App. 1442.
Kane’s and Foster’s plea agreements had been introduced
into evidence. So in context, the prosecutor was not
suggesting that he knew something the jury did not. He was
arguing that the jury should conclude from the plea
agreements that Kane and Foster had everything to lose and
nothing to gain by lying. So the District Court did not abuse
its discretion *149 in letting the prosecutor make this
argument. See
United States v. Saada, 212 F.3d 210,
225–26 (3d Cir. 2000).
Soon after that, the prosecution added a second statement:
“The defense would have you believe that [Kane and
Foster are] not credible because they would come in here
and lie just to try and get a reduced sentence. In order for
you to believe that, ladies and gentlemen, you have to
believe that we are a bunch of idiots.” Wilson App. 1444.
That statement was unfortunate, but he immediately
continued: “If you want to believe that, that’s up to you,
but nothing that you’ve seen in this courtroom would lead
you to that conclusion.”
Id. Allowing that statement
was not error, let alone plain error. The prosecution was
merely commenting on the weakness of the defense’s
theory that Kane and Foster were lying. And the prosecutor
explicitly said it was up to the jury to decide who was
telling the truth, based on what “you’ve seen in this
courtroom.”
Id.
The same goes for the third statement, which the prosecutor
made in rebuttal. He said he was “surprised to hear” the
defense’s theory that “we’re somehow complicit in this
plan to turn the tables on these two guys and have you find
them guilty when they’re—at least Moore, when he’s
really not.” Wilson App. 1500. After mentioning four
agents who investigated the robbery and testified, the
prosecutor asked: “Do you think we all put blinders on and,
when we saw the information provided by Kane and Foster
when they first talked to police and ... there was no gun
mentioned,” that the prosecution “wanted there to be a gun
so bad that we got them to change their story and didn’t let
them plead guilty until they told us it was a gun? Do you
believe that for a minute, ladies and gentlemen? You have
no reason to believe that.” Wilson App. 1500–01.
In context, the prosecutor was commenting on what the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

7

United States v. Wilson, 960 F.3d 136 (2020)

jury would have to believe to accept the defense’s theory:
that several Government witnesses were lying and that the
Government had coerced Kane and Foster to lie about a
gun. The prosecution had the right to argue that the jury
“ha[d] no reason to believe that” theory because, in its
view, there was simply no evidence in the record to support
the defense’s theory. Wilson App. 1501. So the District
Court’s decision to allow these statements was not error,
let alone plain error.

VI. THE EVIDENCE WAS SUFFICIENT TO
SUSTAIN THE CONVICTIONS
Next, both Wilson and Moore challenge the sufficiency of
the evidence that the bank branches were federally insured.
Moore makes two additional arguments: He challenges the
evidence of his involvement in the conspiracy and the
robberies. He also challenges the evidence that the gun
used in the robberies was real.
Our review is highly deferential. We cannot disturb the
jury’s factual findings if, “after viewing the evidence in the
light most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the crime
beyond a reasonable doubt.”
Jackson v. Virginia, 443
U.S. 307, 319, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979). On
this record, all three challenges fail.

A. The stipulation established the jurisdictional
element
Appellants’ first challenge is groundless. The Government
introduced a certificate evidencing the federal insurance of
“Wells Fargo Bank, N.A.,” the national parent company
covering all the branches. Wilson App. 1651. And both
defendants’ counsel stipulated that both branches were
federally insured. A stipulation can establish *150 an
element of a crime. See
Old Chief v. United States, 519
U.S. 172, 186, 117 S.Ct. 644, 136 L.Ed.2d 574 (1997)
(citing Fed. R. Evid. 801(d)(2)(A)).
Appellants fall back on objecting that the stipulation was
not in writing, that they were never advised on it by counsel
or the District Court, and that they did not understand what
was going on. But these objections say nothing about
whether there was enough evidence. There was. The most
we can make of this argument is a rehash of the Sixth

Amendment claim. And as we explained above, whether to
stipulate to a jurisdictional element is a tactical decision
left to counsel’s professional judgment.

B. There was sufficient evidence that Moore was
involved in the crimes
Moore next challenges the sufficiency of the evidence that
he took part in the robberies. He highlights the lack of
physical evidence and the Government’s reliance on
cooperators’ testimony. And he notes evidence that all
three robbers were about the same height, while Wilson
and Foster are six to nine inches taller than he is. He also
claims that there was too little evidence that he was
involved in planning the robberies to support the
conspiracy charge.
But there was plenty of evidence that Moore was involved
in all the crimes: Kane testified that Moore took part in
planning discussions before the robberies. Kane and Foster
both testified that Moore went into the banks carrying a
gun. And both testified that Moore had helped pick the
target of the second robbery. Moore argued to the jury that
Kane and Foster were lying about his role in the robberies.
But the jury could and did reject that argument. And if the
jury believed Kane and Foster, it was justified in finding
that Moore was part of the conspiracy.
We likewise reject Moore’s argument about the height of
the robbers. While some evidence suggested that the
robbers’ heights were similar, other witnesses reported that
one robber was “short and stocky” and that the one who
held the gun was “[m]edium-size[d].” Wilson App. 540–
41, 672–73. It is not our job to reconcile that conflicting
evidence when reviewing a cold trial record. That was for
the jury.

C. There was sufficient evidence of a real gun
Moore also challenges his conviction under
18 U.S.C.
§ 924(c) for using a gun during the bank robberies. He
claims that the Government never proved that the gun was
real, as opposed to a BB gun he owned and used as a prop
in music videos. We disagree.
Several eyewitnesses in the banks testified about the gun,
including one who had lifelong experience with guns. The
two cooperating witnesses corroborated this: Kane testified
that Wilson and Moore called the gun “the .40.” Wilson

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

8

United States v. Wilson, 960 F.3d 136 (2020)

App. 895–96. And Foster testified that before the
robberies, Wilson showed him a loaded “standard-issue
Glock.” Wilson App. 1231–32. Based on a video of the
robbery, one agent concurred that the gun was a Glock .40
caliber, the same gun that he carried on duty. Another agent
agreed. This testimony was more than enough evidence for
a rational jury to find that the gun was real. See United
States v. Beverly, 99 F.3d 570, 572–73 (3d Cir. 1996).

VII. BANK ROBBERY WAS PROPERLY
CHARGED AND INSTRUCTED AS A “CRIME OF
VIOLENCE” UNDER
18 U.S.C. § 924(C)
Wilson and Moore were each convicted of two counts of
brandishing a gun “during *151 and in relation to” a “crime
of violence” under
18 U.S.C. § 924(c)(1)(A)(ii). They
argue that their crimes are not crimes of violence under that
statute, and that the jury instructions on those counts were
improper. The first objection is a nonstarter. We have
recently held that armed bank robbery is categorically a
crime of violence under
§ 924(c)(3)’s elements clause.
United States v. Johnson, 899 F.3d 191, 204 (3d Cir. 2018).
Wilson and Moore’s challenge to the jury instruction
likewise fails. They argue that the District Court should not
have instructed the jury that conspiracy (or perhaps
conspiracy to commit bank robbery) counts as a crime of
violence. But even if that is right, it gets them nowhere.
The District Court instructed the jury that either conspiracy
or armed bank robbery would count as a predicate crime
for a
§ 924(c) conviction, as long as the jury found that
the defendants had used or carried the gun to further the
crime. Wilson App. 1546. The jury convicted both
defendants on both bank-robbery counts. So we can tell
from the verdict form, as well as from the evidence
presented at trial, that there is no “reasonable possibility”
that the jury based its
§ 924(c) convictions only on the
conspiracy as opposed to the bank-robbery counts. See
United States v. Duka, 671 F.3d 329, 356 (3d Cir. 2011).
Thus, even if the instruction was erroneous, any error was
harmless. See
United States v. Waller, 654 F.3d 430,
434 (3d Cir. 2011).

VIII. THE SENTENCES WERE PROPER

Finally, both Wilson and Moore argue that they should get
the benefit of the recent First Step Act, which would lower
their mandatory-minimum sentences. Wilson also argues
that his prison sentence was substantively unreasonable.
Neither argument succeeds.

A. The First Step Act’s change to
§ 924(c) is not
retroactive to defendants sentenced before the Act
was passed
Wilson and Moore argue that they should benefit from the
First Step Act because their cases were still pending on
direct appeal when it was enacted. Thus, they claim, their
sentence had not really been “imposed” within the meaning
of section 403(b) of the First Step Act. See First Step Act
of 2018, Pub. L. No. 115-391, 132 Stat. 5194, 5222. But
while this appeal was pending, we held that a defendant
whom a district court had sentenced before the First Step
Act was enacted could not retroactively claim the benefit
of section 403(b). United States v. Hodge, 948 F.3d 160,
162–64 (3d Cir. 2020).
Wilson and Moore also advance a new argument that we
did not address in Hodge: that by titling section 403’s
amendment a “[c]larification,” Congress was suggesting
that it was simply conforming the text of
§
924(c)(1)(C)(i) to what the statute was supposed to have
meant all along. But whatever the merits of these
arguments, as a later panel we are bound by Hodge’s
reading of section 403. See
Reilly v. City of Harrisburg,
858 F.3d 173, 177 (3d Cir. 2017). So we must reject the
First Step Act argument.

B. Wilson’s sentence was substantively reasonable
The District Court sentenced Wilson to 519 months’
imprisonment (43 years and three months), at the top of his
Sentencing Guidelines range. Wilson does not challenge
the procedures the District Court followed, but claims that
sentence was substantively unreasonable. He did ask for a
lower sentence, right above the 32-year mandatory
minimum, so he has preserved that claim. See
HolguinHernandez v. United States, ––– U.S. ––––, 140 S. Ct. 762,
766, 206 L.Ed.2d 95 (2020). We review the sentence for
abuse of discretion.
United States v. Azcona-Polanco,
865 F.3d 148, 151 (3d Cir. 2017). That means “we will
affirm it unless no reasonable sentencing court would have
imposed *152 the same sentence on that particular

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

9

United States v. Wilson, 960 F.3d 136 (2020)

defendant for the reasons the district court provided.”
United States v. Tomko, 562 F.3d 558, 568 (3d Cir. 2009)
(en banc).
Wilson explains that even a 32-year sentence would keep
him in prison until he was in his fifties. He argues that
imprisoning him longer serves no valid purpose and that
we should not defer to a Guidelines range where, as here,
it is pegged to a mandatory minimum. But the District
Court considered the requisite statutory sentencing factors
set forth in
18 U.S.C. § 3553(a). In particular, it focused
on general and specific deterrence and retribution,
factoring in the crimes’ effect on the victims and Wilson’s
recruiting of other participants. The Court did not defer
blindly to the Guidelines; indeed, it considered both
upward and downward departures. In the end, it chose the
top of the Guidelines range. That decision was reasonable.
End of Document

*****
Criminal defendants have a Sixth Amendment right to
choose the ultimate objectives of their defense. That
includes the right to maintain their factual innocence, even
if their lawyers advise them to admit guilt. But their
lawyers call the shots on the tactics used to achieve those
objectives. Defense lawyers may thus stipulate to the
jurisdictional elements of crimes without their clients’
consent or over their clients’ objection. Because counsels’
stipulations did not violate the Sixth Amendment, and
because Wilson’s and Moore’s other arguments fail, we
will affirm their convictions and sentences.
All Citations
960 F.3d 136
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

10

